Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




          Early Effects of the
      Prospective Payment System
  on Access to Skilled Nursing Facilities

   Nursing Home Administrators’ Perspective




                       JUNE GIBBS BROWN
                        Inspector General

                          OCTOBER 1999
                          OEI-02-99-00401
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Jodi Nudelman, Project Leader                           Jennifer Antico, Program Specialist

Lucille Cop                                             Barbara Tedesco, Statistician

Danielle Fletcher

Miriam Gareau

Judy Lin




      To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                         EXECUTIVE SUMMARY

PURPOSE
          To identify any early effects of the prospective payment system on Medicare beneficiaries’
          access to skilled nursing facilities based on the perspective of nursing home administrators.

BACKGROUND

          The Health Care Financing Administration (HCFA) asked the Office of Inspector General
          to assess whether the new prospective payment system for skilled nursing facilities (SNFs)
          is causing access problems for Medicare beneficiaries. The Balanced Budget Act of 1997
          changed SNF reimbursement to a prospective payment system. Beginning with the SNF’s
          first cost reporting period after July 1, 1998, SNFs are paid through “per diem,
          prospective, case-mix adjusted” payments which cover routine, ancillary, and capital-
          related costs. Concerns have been raised about the effect of the new system on patients
          and on nursing homes.

          To address these concerns, the OIG issued a study entitled, Early Effects of the
          Prospective Payment System on Access to Skilled Nursing Facilities OEI-02-99-00400 in
          August 1999 which is based on interviews with hospital discharge planners and on an
          analysis of Medicare data. This inspection found that, so far, no serious problems in
          placing Medicare patients in nursing homes are apparent. However, nursing homes are
          changing their admission practices in response to the prospective payment system. As a
          supplement to this study, we conducted a study based on interviews with a random sample
          of 57 nursing home administrators and personnel responsible for assessing residents’
          needs.


FINDINGS

Few nursing home administrators believe that access to nursing home
care has become a problem because of the prospective payment
system

          Seventy percent of nursing home administrators report that access to nursing home care is
          “not at all” a problem for Medicare patients in their area. They most commonly explain
          that access is not a problem because there are beds available in their area. Only 8 percent
          of all nursing home administrators attribute access problems to the prospective payment
          system. They more frequently attribute such problems to a shortage of beds in their area.

Early Effects on SNFs: Administrators’ Perspective   1                                    OEI-02-99-00401
          Seventy-four percent of administrators report that their own facility “never” or “not often”
          refuses Medicare patients because it does not have a Medicare-certified bed available.

          Individuals in nursing homes who are responsible for assessing patients’ needs, the “MDS
          coordinators,” also believe that the prospective payment system is not preventing access
          to nursing home care. Ninety-four percent of them believe that their facility has not
          refused residents because of the new reimbursement system.

Nursing homes have changed their admissions practices

          Seventy percent of nursing home administrators report that their admission practices have
          changed as a result of the prospective payment system. Most administrators state that
          they scrutinize patients’ medical status to a greater extent than they did prior to the
          implementation of the prospective payment system.

Medical condition has become more important in nursing home
admissions decisions

          Seventy-four percent of nursing home administrators report that a patient’s medical
          condition has become a more important factor in admissions decisions under the new
          reimbursement system. When asked specifically, 53 percent of administrators report that
          they are less likely to admit patients who require expensive supplies or services such as
          expensive intravenous medications, ventilators, feeding tubes, wound care or dialysis. At
          the same time, 46 percent of administrators report that they are more likely to admit
          patients who require special rehabilitation services, such as physical, occupational, or
          speech therapy. It is important to note that while administrators say that they prefer to
          admit certain types of patients, Medicare data show no changes in nursing home
          placements, as noted in our companion report.

Most support the concept of prospective payment

          Over 80 percent of nursing home administrators support the overall concept of the
          prospective payment system. They agree that matching reimbursement with services
          rendered is generally a fair method of payment. Despite their overall support, many
          administrators also stress the need to revise some of the current reimbursement rates.




Early Effects on SNFs: Administrators’ Perspective   2                                   OEI-02-99-00401
CONCLUSION

          The findings in this report support those in our companion report. Together, the two
          reports show that nursing homes are changing their admissions practices in response to the
          prospective payment system but that, so far, access to skilled nursing care is not a
          problem, most likely because beds are available. These early assessments note, however,
          that these practice changes may affect beneficiaries with certain medical conditions and
          may also affect nursing homes’ reimbursement. Accordingly, we believe that the
          Department must remain vigilant to potential problems for Medicare patients and for
          nursing homes.

COMMENTS

          We received comments on the draft report from the Health Care Financing
          Administration. They generally agree with our findings and our conclusion and will
          remain vigilant in their efforts to assess potential changes that could affect quality and
          access to skilled nursing care for Medicare beneficiaries. A copy of their comments is
          provided in Appendix C.




Early Effects on SNFs: Administrators’ Perspective   3                                      OEI-02-99-00401
                          TABLE                        OF             CONTENTS


                                                                                                                             PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5



FINDINGS

          Access to nursing homes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Admissions practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Medical condition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Support of the prospective payment system . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11



APPENDIX

          A: Nursing home administrator confidence intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          B: MDS coordinator Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          C: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14





Early Effects on SNFs: Administrators’ Perspective                4                                                   OEI-02-99-00401
                                       INTRODUCTION

PURPOSE
          To identify any early effects of the prospective payment system on Medicare beneficiaries’
          access to skilled nursing facilities based on the perspective of nursing home administrators.

BACKGROUND

          The Health Care Financing Administration (HCFA) asked the Office of Inspector General
          to assess whether the new prospective payment system for skilled nursing facilities (SNFs)
          is causing access problems for Medicare beneficiaries. Concerns have been raised about
          the effect of the new system on patients and on nursing homes. To address these
          concerns, the OIG conducted this study and a companion inspection. This study is
          primarily based on interviews with nursing home administrators.

          The companion inspection entitled, Early Effects of the Prospective Payment System on
          Access to Skilled Nursing Facilities OEI-02-99-00400, which was issued in August 1999,
          is based on interviews with hospital discharge planners and on an analysis of Medicare
          data. This inspection found that, so far, there are no serious problems in placing Medicare
          patients in nursing homes. More specifically, most discharge planners report that they can
          place Medicare patients in nursing homes. Further, Medicare data show no changes in
          nursing home placements for Medicare patients. Discharge planners, however, also report
          that nursing homes are changing their admissions practices in response to the new
          prospective payment system. They note that patients who need extensive services have
          become more difficult to place, whereas patients who need rehabilitation services have
          become easier to place.

Medicare Payments to Nursing Homes

          Skilled nursing facility care is covered by Medicare Part A under certain conditions.
          Specifically, the patient must have been hospitalized for three or more days within the last
          30 days for the condition that will be treated in the SNF. The SNF stay must also be
          certified as medically necessary and the patient must require daily skilled nursing or skilled
          rehabilitation services. The number of SNF days provided under Medicare is limited to
          7100 days per benefit period, with a co-payment required for days 21 through 100. A
          patient must be in a bed certified by Medicare for a facility to be reimbursed by Medicare.




Early Effects on SNFs: Administrators’ Perspective   5                                     OEI-02-99-00401
          Medicare Part A payments for SNF care cover routine costs such as the room, dietary
          service, nursing service, minor medical supplies, and social service. Payments also cover
          capital costs for the building and equipment, and ancillary care for specialized services
          such as therapy, laboratory tests, and transportation. Until recently, SNFs were
          reimbursed on a retrospective, reasonable cost basis.

          The Balanced Budget Act of 1997 changed SNF reimbursement to a prospective payment
          system. Beginning with the SNF’s first cost reporting period after July 1, 1998, SNFs are
          paid through “per diem, prospective, case-mix adjusted” payments which cover routine,
          ancillary, and capital-related costs. The per diem payment is based on fiscal year 1995
          Part A & B costs adjusted using the SNF market basket index (minus 1 percent), case-mix
          from resident assessments, and geographical wage variations. The market basket index
          represents an inflation factor. The case-mix index recognizes that SNF residents require
          different levels of care and is based on an assessment that assigns each resident to 1 of 44
          Resource Utilization Groups (RUGS-III). This new payment system is being phased in
          over a 3 year transition period.

          Under the prospective payment system, SNFs are required to classify residents into one of
          the RUGs based on assessment data from the Minimum Data Set (MDS). This data set
          contains a standardized set of clinical and functional status measures for each resident
          which are collected at specific intervals during a resident’s nursing home stay. The MDS
          coordinators work with others to complete these assessments that also determine how
          much the facility will be reimbursed under the prospective payment system.

Nursing Home Concerns

          The nursing home industry has raised several concerns about the new reimbursement
          system. The industry believes that the system will reduce payments to SNFs and may
          cause access problems for Medicare beneficiaries. In media reports, industry
          representatives have expressed concern that the new system may cause some SNFs to go
          out of business.



METHODOLOGY

          This inspection is based on interviews with a random sample of nursing home
          administrators and MDS coordinators. To do this, we selected a total of 64 nursing
          homes in eight States. We contacted the nursing home administrator by telephone and an
          MDS coordinator by mail in each of these facilities. We asked each respondent about
          changes in both their admissions practices and in access to nursing home care that have
          resulted from the new prospective payment system. Seven nursing facilities in our sample
          do not accept Medicare Part A patients. Our analysis, therefore, is based on the responses



Early Effects on SNFs: Administrators’ Perspective   6                                   OEI-02-99-00401
          of the 57 administrators from nursing homes that accept Medicare Part A patients. We
          conducted these interviews in July 1999.

Sample Selection

          We selected a two-stage stratified cluster sample for this inspection. The first stage of
          sampling was a stratified sample of eight States:

                    the four States with the most SNF beds (CA, NY, IL, TX);

                    two of the four States currently using a Medicaid demonstration prospective

                    payment system (MS, ME); 

                    two States randomly selected from the remaining 40 contiguous States (VA, CT).


          At the second stage, we selected a simple random sample of eight nursing homes that had
          greater than 60 beds within each of these States. The State sample is the same as the one
          used for three related studies being conducted by the Office of Inspector General. These
          studies are: Early Effects of the Prospective Payment System on Access to Skilled
          Nursing Facilities, OEI-02-99-00400; Nursing Home Financial Screening and Distinct
          Part Rules, OEI-02-99-00340; and Nursing Home Resident Assessment, OEI-02-99-
          00040.

Limitations

          The findings in this report are primarily based on self-reported data that were not
          independently verified. Further, the precision of the estimates is limited by the small
          sample size. Appendix A provides the confidence intervals for the key estimates used in
          the report. Results are best interpreted when compared to findings in the main report,
          Early Effects of the Prospective Payment System on Access to Skilled Nursing Facilities,
          OEI-02-99-00400.

          This inspection was conducted in accordance with the Quality Standards for
          Inspections issued by the President’s Council on Integrity and Efficiency.




Early Effects on SNFs: Administrators’ Perspective   7                                    OEI-02-99-00401
                                                 FINDINGS

Few nursing home administrators believe that access to nursing home
care has become a problem because of the prospective payment
system

          Seventy percent of nursing home administrators report that access to nursing home care is
          “not at all” a problem for Medicare patients in their area. They most commonly explain
          that access is not a problem because there are beds available in their area for Medicare
          patients. On the other hand, 24 percent report that access is “somewhat” of a problem,
          and 6 percent report that access is a “large” problem in their area. Only 8 percent of all
          nursing home administrators attribute access problems to the prospective payment system.
          They more frequently attribute such problems to a shortage of beds in their area. Some
          also point to the lack of beds available in facilities that have good reputations or in
          facilities that are patients’ first choice.

          Seventy-four percent of administrators report that their own facility “never” or “not often”
          refuses Medicare patients because it does not have a Medicare-certified bed available,
          however, some nursing homes do have difficulty accepting patients. Twenty-five percent
          report that their own facility does not have a Medicare-certified bed available “somewhat
          often,” while less than 1 percent report not having a bed available “very often.”

          Those individuals in the nursing home who are responsible for assessing patients’ needs,
          the “minimum data set” coordinators also believe that the prospective payment system is
          not preventing access to nursing home care. Ninety-four percent of them believe that their
          facility has not refused residents because of the new reimbursement system.

Nursing homes have changed their admissions practices

          Seventy percent of nursing home administrators report that their admission practices have
          changed as a result of the prospective payment system. Most administrators state that
          they scrutinize patients’ medical status to a greater extent than they did prior to the
          implementation of the prospective payment system. They typically require more medical
          information about the patient and conduct more thorough reviews of the services and the
          types of care the patient needs before making admissions decisions. In many situations,
          nursing home staff now go to the hospital to review the patient’s chart or to directly assess
          his or her condition prior to admission. A few say that in their review, they particularly
          focus on whether a patient requires costly intravenous medication, lab work, or ambulance
          transportation.



Early Effects on SNFs: Administrators’ Perspective   8                                    OEI-02-99-00401
          Nursing home administrators seem to use this information in two ways. Some state that it
          helps them determine whether their facility can meet the patient’s needs. Others state that
          the information helps them determine how much it will cost to take care of the patient.
          Some report that they then compare this estimate to the amount they will be reimbursed
          for that patient under the prospective payment system. In general, administrators
          comment that they have become more cost-conscious about which types of patients they
          accept and about how they deliver services.

Medical condition has become more important in nursing home
admissions decisions

          Seventy-four percent of nursing home administrators report that a patient’s medical
          condition has become a more important factor in admissions decisions under the new
          reimbursement system. When asked specifically about which types of medical conditions
          they are more or less likely to admit as a result of the prospective payment system, most
          administrators identify at least one type. The types of conditions they mention are similar
          to those noted by discharge planners.

          More specifically, 53 percent of all nursing home administrators say that there are some
          types of patients that they are less likely to admit. They most commonly cite patients who
          require expensive supplies or services such as those who require expensive intravenous
          medications, ventilators, feeding tubes or wound care. Twelve percent of administrators
          also mention that they are less likely to admit dialysis patients, because they have high
          transportation costs that they are not reimbursed for separately under the prospective
          payment system.

          At the same time, 46 percent of all nursing home administrators say that there are some
          types of patients that they are more likely to admit. They most commonly point to
          patients requiring special rehabilitation services, such as physical, occupational, or speech
          therapy. In particular they mention orthopedic patients, who have had fractures or joint
          replacements, and stroke patients.

          It is important to note that while administrators say that they prefer to admit certain types
          of patients, Medicare data show no changes in nursing home placements, as noted in our
          earlier report entitled Early Effects of the Prospective Payment System on Access to
          Skilled Nursing Facilities OEI-02-99-00400. Specifically in that report, we found no
          difference in where Medicare patients are being placed and in the types of Medicare
          patients that are being placed in skilled nursing facilities between the first five months of
          1998, which is prior to the implementation of the prospective payment system and the
          same five months of 1999, which is after the implementation of the new system.




Early Effects on SNFs: Administrators’ Perspective   9                                     OEI-02-99-00401
Most support the concept of prospective payment

          Over 80 percent of nursing home administrators support the overall concept of the
          prospective payment system. They agree that matching reimbursement with services
          rendered is generally a fair method of payment. Some administrators recognize that there
          were abuses under the cost-based system and support the need for a new system that aims
          to control costs. Despite their overall support, many administrators also stress the need to
          revise some of the current reimbursement rates. Some believe that the resource
          utilization groups are not appropriate for all patients and that the current reimbursement
          levels do not cover costs they incur to take care of some patients.




Early Effects on SNFs: Administrators’ Perspective   10                                  OEI-02-99-00401
                                           CONCLUSION

          The findings in this report support those in our companion report. Together, the two
          reports show that nursing homes are changing their admissions practices in response to the
          prospective payment system but that, so far, access to skilled nursing care is not a
          problem, most likely because beds are available. These early assessments note, however,
          that these practice changes may affect beneficiaries with certain medical conditions and
          may also affect nursing homes’ reimbursement. Accordingly, we believe that the
          Department must remain vigilant to potential problems for Medicare patients and for
          nursing homes.

          COMMENTS

          We received comments on the draft report from the Health Care Financing Administration.
          They generally agree with our findings and our conclusion and will remain vigilant in their
          efforts to assess potential changes that could affect quality and access to skilled nursing
          care for Medicare beneficiaries. A copy of their comments is provided in Appendix C.




Early Effects on SNFs: Administrators’ Perspective   11                                 OEI-02-99-00401
                                                                          APPENDIX A

  CONFIDENCE INTERVALS FOR KEY FINDINGS FOR NURSING HOME
                     ADMINISTRATORS


                                                                POINT     CONFIDENCE
                             KEY FINDINGS                      ESTIMATE    INTERVAL
 Access to nursing homes care is not a problem for
 Medicare patients in your area.                                 70%         43 - 97
 Facilities rarely or never refuse Medicare patients because
 they do not have a Medicare-certified bed available.            74%         65 - 83
 Access to nursing home care is a problem as a result of the
 prospective payment system.                                     8%           0 - 18
 Admissions practices have changed as a result of the
 prospective payment system.                                     70%         52 - 88
 A patient’s medical condition has become a more
 important factor in admissions decisions.                       74%         55 - 92
 Nursing home administrators say that there are some types
 of patients that they are more likely to admit.                 46%          36-57
 Nursing home administrators say that there are some types
 of patients that they are less likely to admit.                 53%          45-61
 Nursing home administrators support the concept of the
 prospective payment system.                                     87%         84 - 91




Early Effects on SNFs: Administrators’ Perspective   12                       OEI-02-99-00401
                                                                               APPENDIX B


                 CONFIDENCE INTERVALS FOR KEY FINDINGS FOR

                   MINIMUM DATA SET (MDS) COORDINATORS


We calculated confidence intervals for the key findings. The point estimate and 95 percent
confidence interval are given for each of the following findings. The point estimates and
confidence intervals for each finding vary based on the standard error for each individual finding.



                                                                  POINT          CONFIDENCE
                             KEY FINDINGS                        ESTIMATE         INTERVAL


 Facilities do not refuse Medicare patients based on PPS             94%              84-100
 reimbursement.
 The number of Medicare certified beds has remained the              76%              46-100
 same as a result of PPS.




Early Effects on SNFs: Administrators’ Perspective   13                                OEI-02-99-00401
                                                                               APPENDIX C


                                                     COMMENTS



          In this appendix, we present in full the comments from the Health Care Financing
          Administration.




Early Effects on SNFs: Administrators’ Perspective      14                             OEI-02-99-00401
Early Effects on SNFs: Administrators’ Perspective   15   OEI-02-99-00401
Early Effects on SNFs: Administrators’ Perspective   16   OEI-02-99-00401
